OFFICE OF BUSINESS OPERATIONS 

  CONTRACTING PERSONNEL

QUALIFICATIONS AND WARRANT

          AUTHORITY 


           Report Number: 09-14

          Date Issued: July 6, 2009 





              Prepared by the

       Office of the Inspector General

     U.S. Small Business Administration
           U.S. Small Business Administration
           Office Inspector General                Memorandum
    To:    Darryl K. Hairston                                         Date:   July 6, 2009
           Associate Administrator for Management and
           Administration

  From:    Debra S. Ritt 

           Assistant Inspector General for Auditing 


Subject:   Audit of the Office of Business Operations Contracting Personnel Qualifications and
           Warrant Authority, Report No. 9-14

           This report presents the results of our audit of contracting personnel qualifications
           and warrant authority in the Office of Business Operations (OBO). OBO is
           responsible for planning, executing, and supporting the Small Business
           Administration’s (SBA) procurement activities. In April 2005, the Office of
           Management and Budget (OMB) issued Policy Letter 05-01, Developing and
           Managing the Acquisition Workforce, requiring that all new contracting officers
           issued contract warrant authority on or after January 1, 2007, be certified at an
           appropriate level to support their warrant obligations. This certification program,
           known as the Federal Acquisition Certification program, is intended to improve
           Federal acquisition workforce competencies. Having a qualified acquisition
           workforce is important to ensure that the $20 million that SBA received for
           contracting under the American Recovery and Reinvestment Act of 2009
           (Recovery Act), is used to obtain the best value for the Agency.

           The purpose of the audit was to determine whether (1) contracting personnel had
           met the education, training and experience requirements for their certification
           levels, and (2) OBO properly managed the issuance and termination of contracting
           officer warrant authority. To accomplish the first objective, we reviewed: OMB
           Policy Letter 05-01; Agency files for the six contracting officers who were issued
           warrants on or after January 1, 2007; and information in the Acquisition Career
           Management Information System (ACMIS). We also interviewed appropriate
           SBA personnel.

           To determine whether OBO was in compliance with requirements for issuing and
           terminating contracting officers’ warrants, we reviewed warrant requirements
           established in pertinent Federal Acquisition Regulations (FAR) and SBA’s
                                                                                      2



Standard Operating Procedure (SOP) 39 15 2 and interviewed OBO personnel to
determine how warrants were being processed and controlled. We conducted our
audit between November 20, 2008 and May 12, 2009 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.

We found that while all six contracting officers had contracting certifications,
OBO issued new warrants to them without documentation on the specific courses
showing that they had the education, training, and experience to support their
certification levels. Also, the Acquisition Analyst administering the certification
program for SBA had not been granted administrative rights to ACMIS, which
limited her ability to manage certification program compliance. As a result, the
Agency is not in compliance with OMB requirements to assure that contracting
officers are qualified to properly administer contract actions, including the
$20 million in contracts planned under the Recovery Act, and cannot readily
identify future training needs. In addition, OBO did not have established
processes or sufficient records for (1) linking warrant authority to certification
levels, and (2) controlling the issuance and termination of contracting officer
warrants. This occurred because managers and supervisors within OBO did not
ensure that the certification program was fully implemented and that a proper
control environment was established for the warrant process.

To address these issues, we recommend that SBA hold contracting personnel
accountable for entering data in ACMIS needed to support their certification
levels, and monitor OBO’s compliance with OMB requirements governing the
certification program. We also recommend that SBA update the official
appointment of the Acquisition Career Manager (ACM) and seek administrative
rights to ACMIS for that individual. Finally, we recommend that SBA revise SOP
39 15 2 to link Federal acquisition certification levels to contracting officer
warrant authority, and establish procedures to better control the issuance and
termination of warrants.

On June 15, 2009, the Associate Administrator, Office of Management and
Administration, provided formal comments to the OIG’s draft report, agreeing
with the report’s findings and most of the recommendations. Specifically, he
partially agreed with recommendations 1 and 2 and agreed with recommendations
3, 4, and 5. The actions proposed by the Associate Administrator were generally
responsive to the recommendations.

BACKGROUND

Policy Letter 05-01, issued by OMB on April 15, 2005, established a Federal
Acquisition Certification program for contracting professionals in civilian
                                                                                     3



agencies to improve Federal acquisition workforce competencies. Under this
directive, individuals issued new contracting officer warrants on or after
January 1, 2007, must be certified at an appropriate level to support their warrant
obligations. To be certified, individuals must complete established curriculum for
each of the three certification levels – Level I (entry), Level II (intermediate), and
Level III (advanced). An individual may meet the mandatory training through
either fulfillment credit (by obtaining the experience, education, and/or taking the
mandatory courses) or equivalency credit (by taking training that is equivalent in
content to the mandatory core courses). Contracting Officers also must maintain
their certification levels by completing 80 continuous learning points every
2 years. Failure to do so can result in the revocation or modification of a
contracting officer’s warrant. Appendix I describes the education, training and
experience requirements for each certification level.

SOP 39 15 2 assigns the Chief Acquisition Officer responsibility for designating
certification levels to support contracting officer warrant thresholds. For example,
a Level I certification may have warrant authority up to $500,000, a Level II
certification may have warrant authority up to $10 million, and a Level III
certification may have unlimited warrant authority. Such warrant limits mean that
contracting officers with warrant authority may not make obligations exceeding
those thresholds. OMB encourages agencies to require a senior-level certification
(Level III) for any employee issued an unlimited warrant on or after January 1,
2007. FAR 1.603-4 requires termination of a contracting officer’s appointment by
letter, unless specified on the Certificate of Appointment that grants the warrant
authority.

Currently, an Acquisition Analyst in OBO is administering the Agency’s
certification program, and the Acting Director of OBO grants certifications and
warrant authority. All documentation related to contracting personnel certification
levels and warrant authority must be maintained in ACMIS, the official system of
records for the certification program for all civilian agencies, which is managed by
the Federal Acquisition Institute. Each contracting officer is responsible for
updating their records in ACMIS.

As of December 3, 2008, OBO employed 10 contracting personnel, of which 7 had
warrant authority. Of the seven, one individual received her warrant authority
prior to January 1, 2007, and was exempt from the requirement to link her warrant
authority to a certification level. Four of the six remaining contracting officers
had unlimited warrant authority and could make obligations of unlimited value.
The other two had warrant authority of $500,000. In fiscal year 2008, OBO
awarded approximately $40 million in contract actions. This amount is expected
to increase by $20 million with Recovery Act funds.
                                                                                   4



RESULTS

OBO Issued Warrants to Contracting Officers Without Following OMB
Guidance

We could not determine whether SBA’s contracting personnel met the education,
training, and experience requirements for their certification levels because SBA
did not collect this information as required. OMB Policy Letter 05-01 requires
that by October 1, 2006, 1 each Federal agency have complete, current records in
ACMIS pertaining to their acquisition workforce education, training, experience,
and certification levels. OBO requires its contracting officers to directly input
information supporting their certification levels in ACMIS. However, the six
contracting officers had not entered their information in ACMIS and had no record
of how they fulfilled their certification requirements. The OBO Acquisition
Analyst administering the certification program told us that the former Director
and current Acting Director of OBO, who issued the warrants, also did not check
with her to ensure that the contracting officers had fulfilled their certification
requirements before issuing the warrants. Consequently, OBO’s former Director
and the current Acting Director, who had ultimate responsibility for implementing
the certification program, did not exercise due care when issuing the new warrant
authority.

In addition, the Acquisition Analyst has been unable to get the information needed
from contracting professionals to determine whether they had fulfilled their
certification requirements. These individuals were also not held accountable for
ensuring that their ACMIS records were complete.

Further, OMB Policy Letter 05-01 requires that agencies designate an ACM, who
will be responsible for ensuring that the agency’s acquisition workforce meets
OMB requirements. Among other duties, the ACM is to be responsible for
maintaining and managing consistent agency-wide data on the agency’s
acquisition workforce in ACMIS. However, the Federal Acquisition Institute had
not been informed that the Acquisition Analyst administering the certification
program was the ACM for SBA. The former Director of OBO had also not
requested that the Federal Acquisition Institute grant the Analyst administrative
rights to ACMIS, which severely limited her ability to manage certification
program compliance.

Deficiencies noted in the audit occurred because senior managers and supervisors
within OBO did not ensure implementation of the certification program. As a
result, the Agency lacked assurance that its contracting officers have the necessary

1
    This date was extended by the Federal Acquisition Institute to July 1, 2007.
                                                                                     5



skills and competencies needed to properly administer contract actions, including
the $20 million in contracts planned under the Recovery Act.

OBO Did Not Manage Contracting Officer Warrants

OBO did not have established processes for (1) linking warrant authority to
certification levels, and (2) controlling the issuance and termination of contracting
officer warrants, as required by OMB and FAR, respectively. OMB Policy
Letter 05-01 requires that contracting officers issued warrants on or after
January 1, 2007, be certified at an appropriate level to support their warrant
authority. To accomplish this, OMB directs agencies to develop specific
requirements for linking warrant authority to certification levels based on agency
needs.

While SBA had established certification levels required for the different levels of
warrant authority in SOP 39 15 1, the Agency issued revised procedures in
SOP 39 15 2, which eliminated the provision linking certification levels to warrant
authority. The revised SOP reserved Appendix 3 to address the contracting officer
warrant process. However, Appendix 3 has not been finalized, leaving the Agency
without a process for linking warrant authority to certification levels. Although
SBA may not be at risk because those individuals delegated unlimited contract
warrant authority had the highest certifications levels (Level III), the Agency is
still required to establish policy that links certification levels to warrant authority
to be in compliance with OMB Policy.

The FAR also requires that agencies establish a process for tracking the issuance
and termination of contracting officer warrant authority. Specifically,
FAR 1.603-3 requires agencies to track the number of warrants issued and to
maintain file copies of all Certificates of Appointment conveying warrant
authority. While OBO maintained files showing who had active warrants, it did
not maintain a log to ensure that issued warrants were sequentially numbered and
could be properly accounted for. As a result, gaps existed in the numbering of
warrants that could not be resolved.

Similarly, OBO did not have adequate controls over the termination of warrant
authority, as required by FAR. FAR 1.603-4 requires termination of a contracting
officer’s appointment by letter, unless specified on the Certificate of Appointment.
Two contracting officers, who were reassigned to other positions within the Office
of Management and Administration, still had valid warrants although they were
not needed in their new positions. OBO had not issued termination letters, and the
contracting officers’ Certificates of Appointment did not contain expiration dates.
Lacking expiration dates, their warrant certificates are valid indefinitely. Without
a log for tracking warrants, OBO did not have a record of those that had been
                                                                                      6



terminated. If OBO had clear policies and procedures governing how warrants
were to be controlled, it could minimize the risk of unauthorized contract actions.

RECOMMENDATIONS

We recommend that the Associate Administrator for Management and
Administration:

1. Hold contracting personnel accountable for entering data in ACMIS needed to
   support their certification levels.

2. Monitor OBO’s compliance with OMB requirements governing the
   certification program.

3. Update official designation of the Acquisition Career Manager and seek
   administrative rights to ACMIS for the position from the Federal Acquisition
   Institute.

4. Revise SOP 39 15 2 to link Federal acquisition certification levels to
   contracting officer warrant authority limits as required by OMB Policy
   Letter 05 01.

5. Establish procedures to better control the issuance and termination of warrant
   authority, as required by FAR 1.603, which includes: issuing authority through
   Certificates of Appointment; terminating warrant authority by letter or through
   expiration dates on certificates; maintaining records of such actions; and
   establishing a control log, which accounts for each warrant issued through
   sequential numbering.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On May 13, 2009, we provided a draft of the report to SBA’s Office of
Management and Administration for comment. On June 15, 2009, the Associate
Administrator, Office of Management and Administration, provided formal
comments, which are contained in their entirety in Appendix II. Management
partially agreed with recommendations 1 and 2 and agreed with recommendations
3, 4, and 5. Management’s comments and our evaluation of them are summarized
below.
                                                                                  7



Recommendation 1

Management Comments

The Associate Administrator, Office of Management and Administration, partially
agreed with the recommendation, stating that the system functionality of ACMIS
is not within the span of control of the ACM. The Associate Administrator also
stated that OBO will have contracting personnel and their supervisor register in
ACMIS and will hold them accountable for entering their personnel data. The
ACM will verify that contracting personnel continue to enter their personnel data,
and with administrative rights to ACMIS, should be able to resolve some of the
issues experienced by contracting personnel in entering their data. If the issues
cannot be resolved, the ACM will develop an error reporting file on the ACMIS
system, work with contracting personnel to continue to enter data when the system
is available, and provide training to contracting personnel on ACMIS. These
actions will be completed by September 30, 2009.

OIG Response

We consider management’s comments to be responsive to the recommendation
and the proposed actions will address the issues identified in the audit.

Recommendation 2

Management Comments

The Associate Administrator, Office of Management and Administration, partially
agreed with the recommendation, and stated that OBO currently has an established
tracking and monitoring mechanism in place that exceeds OMB requirements
under Policy Letter 05-01. The Associate Administrator also stated that the ACM
will continue to update the acquisition workforce personnel files and provide
additional formalized guidance and procedures to further raise the awareness of
the roles and responsibilities of the acquisition workforce. These actions will be
completed by September 30, 2009.

OIG Response

We agree with management that OBO is manually tracking and monitoring
outside of ACMIS how contracting personnel meet the certification level
requirements; however, the recommendation was addressing broader compliance
issues, including that the contracting personnel data was not entered in ACMIS,
and an ACM had not been officially appointed and had not been granted
administrative rights in ACMIS to manage certification program compliance.
                                                                                     8



Management’s comments are responsive to the recommendation, and the proposed
actions should satisfy the intent of the recommendation.

Recommendation 3

Management Comments

The Associate Administrator, Office of Management and Administration, agreed
with the recommendation, and stated that they informed the Federal Acquisition
Institute that SBA had designated a new ACM and requested and obtained
administrative rights. The Associate Administrator also stated that they will have
the Chief Acquisition Officer officially appoint the ACM by July 15, 2009.

OIG Response

Management’s comments are responsive to the recommendation, and the proposed
actions, which will be fully implemented once the Chief Acquisition Officer
officially appoints the ACM, should satisfy the recommendation.

Recommendation 4

Management Comments

The Associate Administrator, Office of Management and Administration, agreed
with the recommendation, and stated that when SOP 39 15 2 was revised, the
chapter on contracting officers was not completed. This chapter is currently under
revision and will establish the policy and procedures. This action will be
completed by September 30, 2009.

OIG Response

Management’s comments are responsive to the recommendation, and the proposed
actions, which will be fully implemented once the chapter on contracting officers
is finalized, should satisfy the recommendation.

Recommendation 5

Management Comments

The Associate Administrator, Office of Management and Administration, agreed
with the recommendation, and stated that the tool used to track and monitor
warrants will be updated to include warrant termination and expiration dates. The
Associate Administrator also stated that OBO is writing policy and procedures for
                                                                                 9



the issuance and termination of warrant authority. These actions will be
completed by September 30, 2009.

OIG Response

Management’s proposed actions are responsive to the recommendation.

We appreciate the courtesies and cooperation of the Office of Management and
Administration during this audit. If you have any questions concerning this report,
please call me at (202) 205-[FOIA ex. 2] or Riccardo Buglisi, Director, Business
Development Programs Group, at (202) 205-[FOIA ex. 2].
                                                                                10





APPENDIX I. FEDERAL ACQUISTION CAREER-CONTRACTING
CERTIFICATION) REQUIREMENTS
The requirements for the Federal Acquisition Career Contracting Certification
program are shown below.

Level I

1.	 Education: Baccalaureate degree OR at least 24 semester hours among these
    disciplines: accounting, law, business, finance, contracts, purchasing,
    economics, industrial management, marketing, quantitative methods, and
    organization and management.

2.	 Experience: 1 year of contracting work experience.

3.	 Training: Six Core Classes -

      a.	 CON 100: Shaping Smart Business Arrangements (CON 100 should be
          taken by those just entering the acquisition workforce or those new to
          the government. Employees who are beginning a Level I certification
          program must take CON 100. Employees pursuing Level II or Level III
          certifications may consider taking CON 100 as an elective.)
      b. CON 110: Mission Support Planning (online)
      c.	 CON 111: Mission Strategy Execution (online)
      d. CON 112: Mission Performance Assessment (online)
      e.	 CON 120: Mission Focused Contracting (classroom)
      f.	 One elective

4.	 Previous Courses that Satisfy Training Requirements: An individual must
    complete CON 101, CON 104, and one elective to meet the training
    requirements for Certification Level I.

      a.	 CON 101
      b. CON 104

5.	 Legacy Courses that Satisfy Training Requirements: An individual must
    complete all six Legacy courses and one elective to meet the training
    requirements for CERTIFICATION Level I.

      a.	 Acquisition or Procurement Planning I
      b. Contract Formation I
      c.	 Contract Administration I
                                                                                11



       d. Price Analysis
       e.	 Cost Analysis
       f.	 Negotiation Techniques

If an individual has completed a portion of either the Previous Courses or the
Legacy Courses outlined above, they can use the fulfillment process to get credit
for completed training.

6. Continuous Learning Points (CLPs): 	80 Continuous Learning Points must be
   accumulated every 2 years in order to maintain certification.

Level II

1.	 Certification: Level I

2.	 Experience: 2 years of contracting work experience.

3.	 Education: Baccalaureate degree OR at least 24 semester hours among these
    disciplines: accounting, law, business, finance, contracts, purchasing,
    economics, industrial management, marketing, quantitative methods, and
    organization and management.

4. Training:

           a. Current Training Course Requirements (effective FY 07-08):
                  i.	 CON 202: Intermediate Contracting (classroom)
                 ii.	 CON 204: Intermediate Contract Pricing (classroom)
                iii.	 CON 210: Government Contract Law (classroom)
                iv.	 Two electives
                 v.	 Plus all Level I training

           b. New Training Requirements (effective FY 08 and beyond):
                  i.	 CON 214: Business Decisions for Contracting (online)
                 ii.	 CON 215: Intermediate Contracting for Mission Support
                iii.	 CON 216: Legal Considerations in Contracting (online)
                iv.	 CON 217: Cost Analysis and Negotiation Techniques
                      (online)
                 v.	 CON 218: Advanced Contracting for Mission Support
                vi.	 Two electives
               vii.	 Plus all Level I training
                                                                                 12



5.	 Legacy Courses that Satisfy Training Requirements: An individual must
    complete all six Legacy courses and one elective to meet the training
    requirements for certification Level I.

            a.	 Acquisition or Procurement Planning II
            b. Contract Formation II
            c.	 Contract Administration II

6.	 Continuous Learning Points (CLPs): 80 Continuous Learning Points must be
    accumulated every 2 years in order to maintain certification.

Level III

1.	 Certification: Level II

2.	 Experience: 4 years of contracting work experience.

3.	 Education: Baccalaureate degree OR at least 24 semester hours among these
    disciplines: accounting, law, business, finance, contracts, purchasing,
    economics, industrial management, marketing, quantitative methods, and
    organization and management.

4.	 Training:

            a.	 CON 353: Advanced Business Solutions for Mission Support
                (classroom)
            b. Two electives
            c.	 Plus all Level I and Level II Training

5. Previous Courses that Satisfy Training Requirements:

            a.	 CON333 is an equivalent course. In addition, the individual needs to
                complete two electives.

            Note: CON301 may be used to meet one of the two required electives.

6.	 Continuous Learning Points (CLPs): 80 Continuous Learning Points must be
    accumulated every 2 years in order to maintain certification.
14

